<html>
<title> - FURTHER INQUIRY INTO MARINE CORPS POLICIES AND PROCEDURES REGARDING NEXT-OF-KIN NOTIFICATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-84]
 
  FURTHER INQUIRY INTO MARINE CORPS POLICIES AND PROCEDURES REGARDING 
                        NEXT-OF-KIN NOTIFICATION

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             AUGUST 2, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
38-315 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOHN M. McHUGH, New York
LORETTA SANCHEZ, California          JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  THELMA DRAKE, Virginia
PATRICK J. MURPHY, Pennsylvania      WALTER B. JONES, North Carolina
CAROL SHEA-PORTER, New Hampshire     JOE WILSON, South Carolina
               Kevin Coughlin, Professional Staff Member
               Jeanette James, Professional Staff Member
                      Joe Hicken, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, August 2, 2007, Further Inquiry into Marine Corps 
  Policies and Procedures Regarding Next-of-Kin Notification.....     1

Appendix:

Thursday, August 2, 2007.........................................    25
                              ----------                              

                        THURSDAY, AUGUST 2, 2007
  FURTHER INQUIRY INTO MARINE CORPS POLICIES AND PROCEDURES REGARDING 
                        NEXT-OF-KIN NOTIFICATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Magnus, Gen. Robert, Assistant Commandant of the Marine Corps, 
  U.S. Marine Corps..............................................     3

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    29
    Magnus, Gen. Robert..........................................    36
    McHugh, Hon. John M..........................................    33

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    [There were no Questions submitted.]
  FURTHER INQUIRY INTO MARINE CORPS POLICIES AND PROCEDURES REGARDING 
                        NEXT-OF-KIN NOTIFICATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                          Washington, DC, Thursday, August 2, 2007.
    The subcommittee met, pursuant to call, at 2:10 p.m., in 
room 2212, Rayburn House Office Building, Hon. Susan Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Ms. Davis. The meeting will come to order.
    I want to thank you all for being here.
    This hearing is being held today because the subcommittee 
was not satisfied with the information provided to us on June 
27, 2007, in our hearing on the policies and procedures 
regarding the notification of next of kin of deceased service 
members.
    At that hearing, the Marine Corps provided testimony that 
was not accurate. So, as a result of that, Ranking Member 
McHugh, Dr. Snyder, myself met with Lieutenant General Ronald 
Coleman, the Marine Corps Deputy Commandant for Manpower and 
Reserve Affairs, on July 17, 2007, to discuss some of the 
issues and questions that arose from that hearing.
    But as a result of that particular briefing, we still 
unfortunately, did not feel comfortable that the casualty 
notification process that the Marine Corps had in effect was 
sufficient, especially concerning those Marines who were either 
wounded or killed as a result of friendly fire.
    So the purpose of this hearing today is to correct any 
inaccurate or incorrect information that was previously 
provided to this committee and to the public, and allow the 
Marine Corps to set the record straight on this issue.
    I look forward to the discussion that we will have here 
regarding the issue to ensure that the procedures and the 
tracking system that the Marine Corps has in effect are 
sufficient to ensure accurate and timely notification to our 
service members and their families.
    Before I introduce our witness, I just wanted to give 
Congressman McHugh an opportunity for any opening remarks that 
he may wish to make.
    And I certainly want to welcome here General Magnus. We 
welcome you. We thank you for your service to the country, and 
we know that we will want to move forward with this hearing 
today. Thank you.
    Mr. McHugh.
    [The prepared statement of Ms. Davis can be found in the 
Appendix on page 29.]

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
     YORK, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Thank you, Madam Chair.
    Let me join you in welcoming our distinguished panelist 
here today. General Magnus is to be thanked by every American 
for the great leadership he brings and, quite honestly, for 
showing some pretty significant courage for being here today as 
we look back over the history as you defined it, Madam Chair.
    I would ask, Madam Chair, that my prepared statement be 
entered into the record in its entirety. Let me just make a 
couple of comments.
    I really, when we started out here, wondered if another 
hearing was necessary. But as we have gone forward, and as the 
data continuously changes, including as recently as last night, 
as I understand it, where we were provided yet with another 
incident of--at least insofar as we are aware--unreported 
incident, I just have found myself in a position of really 
doubting virtually everything we have heard. And I find it 
difficult to find much veracity in what we might hear. And that 
is a hard thing for me to say, and it is a terrible place for 
us to be.
    I think we have actually come to the point--and I don't 
want to pre-judge anything General Magnus says. And I am not in 
any way questioning his honesty. I know the caliber of the man, 
and I know he will be here today providing the best data that 
he possibly can.
    But given the very difficult road we traveled to this 
point, I really fear that, particularly amongst the families of 
those who have suffered, either wounded in action, or of course 
at the extreme, killed in action, can possibly have in the 
process that have supposedly assured them of how their loved 
one met whichever fate they may have encountered.
    And I think, Madam Chair, we may be at a point where it 
would be almost impossible to avoid soliciting the help of an 
outside organization, be it the GAO, Government Accountability 
Office, or some other, to take a look at the entire range of 
incidences, starting with Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF), as to how the reporting has been 
done.
    None of us want to see a circumstance--and I know the 
Marines are right at the head of this line--none of us want to 
see a circumstance where a loved one receiving notification or 
not receiving a notification makes an incorrect assumption 
based on a system that, for whatever reason, has not worked 
well and hasn't filled its challenge.
    So with that, Madam Chair, I do look forward to General 
Magnus's comments. And, again, none of what I have said is in 
any way intended to cast aspersions upon his outstanding record 
of service--we are so lucky as a country to have individuals 
such as he--but as to a system that, frankly, I think has 
caused doubts in all of us.
    So I will yield back the balance of my time.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 33.]
    Ms. Davis. Thank you, Mr. McHugh.
    We are honored today to be joined by the Chairman of the 
Armed Services Committee, Mr. Ike Skelton, who was previously, 
quite a number of years ago, chairman of the Personnel 
Committee. And he tells me every day that he wants to watch and 
be sure that I handle this committee just the way he did, and I 
am working to do that.
    So thank you, Mr. Chairman, for being here, and we look 
forward to your participation if you so choose. And I 
appreciate your being here.
    As I mentioned earlier, we have one witness today, General 
Robert Magnus, assistant commandant of the United States Marine 
Corps.
    As I said earlier as well, we thank you very much for your 
service to our country. And we know that this has been 
difficult going back and trying to understand why, in fact, 
some of the reporting did not occur as it should have, trying 
to correct that, and to move forward.
    We are concerned, as I know you are as well, with how 
change of notices impact our families. The initial notice is 
very difficult, but further notices make it especially hard on 
them. And so we want to be certain that we have it right. And I 
know that the Marine Corps is working to do that as well.
    Your written comments and statements, of course, will be 
made part of the hearing record, so we encourage you to 
summarize your remarks if you would like.
    We are going to try and keep, I think, today, Mr. McHugh, 
perhaps to five minutes so people have an opportunity to go 
around.
    And I appreciate everybody being very patient with me 
yesterday as well.
    So, we will get started. General Magnus, please proceed.

 STATEMENT OF GEN. ROBERT MAGNUS, ASSISTANT COMMANDANT OF THE 
                MARINE CORPS, U.S. MARINE CORPS

    General Magnus. Thank you, Chairwoman Davis, Congressman 
McHugh, distinguished members of the subcommittee, and Chairman 
Skelton. Thank you very much for this opportunity to correct 
the record on next of kin notification.
    I deeply regret that information the Marine Corps officials 
provided at the hearing on June 27th and the subsequent 
briefing on July the 17th was inaccurate. On behalf of the 
Commandant of the Marine Corps, I offer our sincerest apology 
to the subcommittee.
    Also, for our Marines and families, the Commandant and I 
are personally and professionally distressed that we have not 
always provided timely and accurate information to them, which 
did not alleviate their stress or help them to come to closure.
    However, the Commandant and I thank the subcommittee for 
bringing this problem to light. I solemnly assure you that we 
will do the right thing for our Marines, sailors, and their 
families, making every effort to preclude future errors.
    We previously reported that next of kin of Marines killed 
by friendly fire on the 12th of April, 2004, had been notified. 
That report was unintentionally inaccurate, although late 
notifications have been made by general officer visits to those 
families on the 20th and 23rd of July to the Marine families 
that were involved.
    We also incorrectly reported the number of friendly fire 
incidents and casualties. That number, as we understand it 
today, is 23 suspected friendly fire incidents with 19 of those 
confirmed, including 6 deaths and 38 wounded due to friendly 
fire.
    It is important to note that we are not confident that this 
is definitive because a preliminary review of our processes has 
revealed inconsistencies in our record.
    That preliminary review revealed deficiencies in three key 
processes related to notification, processes that we now 
realize are interrelated.
    The first process is the command casualty reporting 
process, which includes a telephonic report followed by initial 
and any supplemental personnel casualty reports or PCR's. These 
reports were not uniformly accurate or complete. While we 
understand that this was probably due to the stresses of 
intense combat on reporting commands, increased emphasis on and 
possibly changes to our casualty reporting process are needed 
to ensure accuracy and timeliness.
    Second, the command casualty inquiry and investigation 
process may not have been consistently documented, including 
completion of any actions requested by higher command 
endorsements to those investigations.
    Third, our process for notifications to next of kin was not 
always in compliance with statute or our own policies and 
procedures. As a result of these deficiencies, our command 
reporting information, inquiry and investigation, and casualty 
notification processes have not always been consistent, 
accurate, or timely. Timely delivery of accurate information to 
the next of kin is our responsibility.
    Although we believe investigations were conducted on all 
suspected friendly fire cases, our preliminary review revealed 
that the PCR's have not uniformly reported all friendly fire 
investigations as required by regulations.
    Although notifications were made to next of kin, in some 
cases they were late and did not indicate that friendly fire 
was suspected or determined.
    Clearly, the three processes need improved emphasis, 
training of personnel, and linkages, as well as appropriate 
oversight measures.
    The Inspector General (IG) of the Marine Corps has been 
charged with providing recommendations to ensure that we have 
definitive information in order to take effective remedial 
actions. The Commandant has directed the Inspector General to 
conduct a detailed and thorough investigation into our casualty 
reporting and notification processes with full access to all 
records and personnel.
    This subcommittee will be provided a copy of the completed 
investigation.
    We are working with the United States Army to ensure 
uniform and consistent casualty procedures. We believe that the 
U.S. Army has an effective model which can be rapidly adopted 
by the Marine Corps.
    We are also working with the Office of the Secretary of 
Defense (OSD) and the Navy Secretariat to ensure compliance 
with the requirements of National Defense Authorization Acts 
for fiscal year 2006 and fiscal year 2007.
    We are taking action without waiting for results of the 
IG's investigation. We will issue guidance to commanders, 
reemphasizing the need for timely, accurate reporting, 
inquiries and investigations, and the linkages to ensure proper 
notifications are made.
    Our duty is to ensure notification is conducted in 
accordance with statute and casualty procedures. I accept 
responsibility for the process failures that negatively 
affected the families of our fallen and wounded warriors. On 
behalf of the Commandant of the Marine Corps, I apologize for 
our errors.
    We thank the subcommittee for this opportunity to correct 
the record. We also thank the Congress for its abiding concern 
for the welfare and care of our Marines, sailors, and their 
families. Caring for them is simply the right thing to do. It 
is part of our ethos as Marines, and we will do it.
    I am prepared to answer your questions.
    [The prepared statement of General Magnus can be found in 
the Appendix on page 36.]
    Ms. Davis. Thank you, General.
    What I would like to do, because I think it would be for 
the benefit of the members, if we could go through several of 
the hearings that we have had, to try and go back a little bit 
on those numbers.
    On the 27th of June, when the Marine Corps testified, they 
said there were only 19 friendly fire casualties from 2 
incidents.
    And then on the 17th of July, we were briefed that actually 
there were 77 friendly fire casualties from 20 incidents.
    And then, of course, yesterday we learned that, in fact, 
there were actually 82 friendly fire casualties from 23 
different incidents.
    So I would hope that you could go back and help us out a 
little here. Where did the Marine Corps get the numbers that we 
received on July 17th?
    General Magnus. The numbers we received from July 17th were 
as a result of a first preliminary review, not by the Inspector 
General, of the records that we had at Headquarters Marine 
Corps of these three processes and in telephonic contact with 
Marines in Marine Central Command Headquarters in California.
    That preliminary review, particularly subsequent to my 
review of the briefing that was conducted on the 17th of July, 
led me to immediately go to the Commandant and indicate that 
not only had the numbers changed between the 27th of June and 
the 17th of July, but the reason why the changes gave me pause 
as to the accuracy of the records that were being cross-
referenced.
    And subsequent to that, a second review--not by the 
Inspector General--was done, which gave us the best information 
that I have, which as I have noted earlier, Madam Chairwoman, I 
am not confident it is definitive. And it is based upon direct 
contact between the 17th of July and the date of my letter to 
the subcommittee between senior officers in Marine Corps 
Central Command, Camp Pendleton, and officials at Headquarters 
Marine Corps.
    I will be confident in the definition of the process 
deficiencies we have and in the numbers of incidents and, most 
importantly of course, in the numbers of killed and wounded 
casualties on completion of the Inspector General's report.
    Ms. Davis. If we go beyond the 17th then, and we go to 
August 1st, what is it then about the new number--where did you 
look for that information then? Was that also going back to the 
preliminary review?
    General Magnus. Madam Chairwoman, the first review gave us 
the numbers which were still not complete and correct that you 
received in the briefing on the 17th of July.
    A second, more in-depth review, but not by the Inspector 
General, not with a methodical investigative process, revealed 
updated numbers. Those numbers were provided, and when I 
reviewed, subsequent to the briefing, the method by which the 
numbers were derived, serious questions arose, not as to the 
professionalism or intent of Marines that were providing the 
numbers, but simply in the way these numbers were accounted.
    And in fact, as you indicated, the number of cases of 
wounded Marines increased and gave us great pause as to the 
accuracy of these processes and the checks and balances that 
would give us numbers. I think the numbers are, of course, 
different numbers, but we will only be confident when we are 
100 percent accurate and are able to change our processes in 
the future.
    Ms. Davis. When do you think that the IG's investigation 
will be completed?
    General Magnus. Within a matter of weeks.
    I have spoken to the Acting Inspector General of the Marine 
Corps, Mr. Holmgren. He has been given full latitude to go 
through all of our major subordinate commands that have had 
casualties, including our reserves. And to ensure that we have 
access to all the records to be able to cross-reference all of 
the documents, to ensure that we know each individual by name, 
their status, the determination of whether or not there was 
friendly fire, and also to determine our process for ensuring 
notification.
    Notifications, ma'am, are ongoing right now with some of 
the wounded that were identified in the 12 April, 2004, 
investigation. Lance Corporal's Zurheide and Shuder were killed 
in action and that, I think, was covered in the earlier 
testimony, ma'am.
    Ms. Davis. Okay, thank you, General.
    So that we can get around to members and have several 
rounds, Mr. McHugh? Would you like to pick it up?
    Mr. McHugh. Thank you very much.
    I would also note, Madam Chair, in your very thorough 
review, that on the 17th of July briefing, not only were the 
numbers wrong, we were also misinformed that two families had 
been notified of the circumstances of their loved ones' death 
when, in fact, what they had received were letters that an 
investigation was being done. They could receive those 
investigations if they asked for it.
    So there were really two layers in this information, just 
to fill out the record.
    General Magnus, I heard you describe in part the Marine 
Corps IG's process of reviewing those cases, but tell me again: 
Is he trying to coordinate the data and the information 
strictly between the headquarters of the Marine Corps and 
Marine Central Command? Is that the extent of his look-see?
    General Magnus. No, sir. I wasn't clear----
    Mr. McHugh. You probably were. I probably just didn't----
    General Magnus. The Inspector General is going wherever he 
needs to go. He is going, of course, to Marine Forces Central 
Command, but he will go to each one of the major subordinate 
commands that provided Marines since this war began.
    So he will be going to all four divisions, all four wings, 
all four Marines logistics groups, to ensure that we not only 
have got an accounting for those commands that were deployed, 
but also that we have taken the effective actions in terms of 
notifications to next of kin back here, which is mainly in the 
continental United States and Hawaii.
    Mr. McHugh. And I appreciate that, and that is what a good 
Inspector General does, but it may not take him everywhere that 
perhaps we would like to see it done.
    For example, after the very tragic case of Corporal Pat 
Tillman, the Army really initiated a review from top to bottom 
and went back to all of the battalions to direct a specific 
investigation that were done at friendly fire incidences to see 
if there were any inaccuracies.
    Has the Marine Corps done anything like that, contemplated 
anything like that? Because it seems to me that the Inspector 
General is going to be subject to whatever data he may be 
provided that may not be corrected back enough.
    General Magnus. Again, Congressman McHugh, I must not have 
been clear. We are doing precisely that. We are going back to 
every single investigation.
    We are also going back to all of our casualties. In other 
words, this is broader than just friendly fire. This is about 
the casualty notification and reporting process, a very 
important part of that, of course, is regarding actual or 
suspected friendly fire.
    So it is the overall process that needs to be looked at and 
with specific emphasis on the notification of next of kin. So 
we are doing exactly what the Army is doing.
    Mr. McHugh. So the place where I was a little unclear, not 
that he would go to that level, but indeed every case at the 
battalion level has been directly ordered to be revisited.
    General Magnus. That is correct, sir.
    Mr. McHugh. Okay.
    Can you help us understand what it was in the system, for 
example, that caused the discrepancies between the two numbers, 
with respect to Headquarters Marine Corps and Marine Central 
Command? I understand you had some reconciliation, some kinds 
of problems in the system, but do you have any preliminary 
information as to how those two numbers could have been so 
disjointed?
    General Magnus. Congressman, it would be speculative, and 
so therefore I will go there because it is the reason why I 
advised the Commandant that we needed an Inspector General's 
investigation.
    When I reviewed the terminology that was used in charts and 
in information papers that I was provided with terminology in 
statute and in our regulations and on the documents, people 
were using different words to describe certain conditions. So 
there is the terminology, but that doesn't account for the fact 
that even when you add up the numbers, the numbers changed.
    In fact, there were five of the wounded that apparently had 
just not been correctly accounted for. Those five wounded in 
the personnel casualty records were in Headquarters Marine 
Corps.
    The system for ensuring that we had a rigorous accounting 
did not have the checks and balances that I know we need now.
    Mr. McHugh. I just have a moment left.
    When General Downs came before the committee the first time 
on June 27th, I assume he was taking data from one source. 
Otherwise, he would have known there was a conflict. Which 
source was he deriving the data from?
    General Magnus. Congressman, I can't answer what source the 
general would have used.
    I can tell you that the Marine Corps is in compliance with 
the Department of Defense (DOD) instructions. There is one 
casualty reporting and responsible section in each one of the 
military services. Our casualty section is under Manpower and 
Reserve Affairs.
    I believe retired General Mike Downs testified before the 
committee. He is the senior officer in that section. That is 
the one section where these processes need to come together.
    Mr. McHugh. I see my time has expired.
    Thank you, Madam Chair.
    Ms. Davis. Thank you, Mr. McHugh.
    Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair.
    General, the hearing on June 27th was my last hearing in 
which I participated in as the chairman of this committee, and 
all of us got really uncomfortable as the hearing proceeded 
with what we were hearing. But one of them was the very strong 
testimony from General Downs that there had only been two 
incidents, two incidents with multiple casualties, but two 
incidents.
    And we challenged him on that: Has anyone ever wondered 
perhaps, and given everything the Marine Corps has done since 
spring of 2003, that there couldn't possibly be other 
incidents? And some very firm statements were made.
    Subsequent to that, I think we have gotten information that 
there had been discussions prior to the hearing that perhaps 
that is not accurate. Perhaps there had been more than two 
incidents.
    I mean, issue number one is to get this information and get 
a system right that will work for these families for the Marine 
Corps, but a lesser issue is this Congress, as a representative 
for the American people, deserves accurate information.
    And this is pretty close to a man sitting there being asked 
a question, ``Did you have any uncertainty about this 
information?'', and had been told before the hearing that there 
was uncertainty about that information and did not pass it on 
to this committee.
    Have you looked into that aspect of things at all?
    General Magnus. Congressman, I have not looked into that, 
and that is part of the----
    Dr. Snyder [continuing]. I would encourage you to do that.
    General Magnus. Sir, yes, sir, and that is part of the 
charter of the Inspector General. If in fact, information was 
incorrectly derived, we will find out why. If, in fact, there 
was any intentional violation, that will also be reported.
    To the best of my understanding, sir, I believe General 
Downs incorrectly understood what he was preparing for, but I 
cannot account for why there was literally almost an order of 
magnitude difference between the numbers.
    Dr. Snyder. Well, it is also my understanding that he was 
put on notice, that there may well have been----
    General Magnus. Yes, sir.
    Dr. Snyder [continuing]. Some problems with more junior 
Marines saying, ``We think there may be more than two, and you 
are about to testify before Congress very firmly there is only 
two.'' And we were informed within less than 24 hours by well-
meaning Marines that they thought that they were going to need 
to come and give us a briefing because their information was 
incorrect.
    So my second question is: We were also informed that one of 
the incorrect things that we were informed was that the Marine 
Corps did not investigate or have any kind of a preliminary 
investigation of all deaths. And in fact, when we challenged 
that a little bit because the Army does that now, probably as a 
result of the Corporal Tillman case amongst others, we are told 
that would be a waste of time to do that, that it would be real 
clear in an Improvised Explosive Device (IED) explosion of what 
had occurred.
    Well, it turned out, as we were subsequently told, that you 
do indeed do a preliminary investigation on all deaths. Is that 
correct information?
    General Magnus. Neither of those, I believe, is correct, 
but I will talk for the Marine Corps, sir.
    The regulation does not require a preliminary inquiry in 
accordance with our Judge Advocate General's manual which is 
the same as Army Regulation 15-6, when on the scene it is clear 
to the senior official there that a death or injury was due to 
enemy fire.
    When there is any doubt of the cause of any casualty 
including, of course, a mishap--and in this case, we are 
talking about a hostile action--a preliminary inquiry is done 
to ascertain that. And then, of course, if in fact that 
suspicion sustains after a preliminary inquiry, which simply 
could be a commissioned officer looking at the scene and 
determining that there is some doubt, then of course, a formal 
investigation will be undertaken.
    The regulations do not require, when there is certainty at 
the scene that the casualty was caused by friendly fire, for 
there to be an inquiry.
    Dr. Snyder. Maybe what we have is a terminology problem 
because I would perhaps argue in defense of your system that, 
in fact, that was the preliminary inquiry.
    General Magnus. And, Congressman, that is a great point 
because we have had that discussion with our service judge 
advocate, in fact, if there is in fact a questioning, an 
inquiry at the site--and it is determined by competent 
authority that it was enemy fire--to their certainty, then what 
we have to do is document that that took place. Right now, the 
only documentation of that is the line in the personnel 
casualty report that indicates enemy fire.
    It turns out that, subsequently, that may not be good and 
sufficient documentation. We are reviewing that along with what 
the Army does.
    Dr. Snyder. Thank you, General. I will have other questions 
later.
    Ms. Davis. Thank you.
    Thank you, Dr. Snyder.
    And I want to move to Mr. Kline. Mr. Kline, would you yield 
one second?
    Could you define ``preliminary inquiry'' for us? What does 
that entail--reporting, telephone call? I mean, it can be a 
range of things--is that correct? So it is not a written-down 
report necessarily?
    General Magnus. Not necessarily, and that is one of the 
aspects that we are looking at because, to have checks and 
balances, you have to have some kind of record or documentation 
to have an audit trail.
    Ms. Davis. Okay, thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Madam Chair.
    Thank you, General, for being here and sort of stepping up 
to the plate, as it were, to answer the questions which in our 
minds were unanswered and had risen our concern to quite high 
levels and, I am sure with great confidence, yours and the 
Commandant's.
    I know that there are very good professionals trying to do 
their very best in very tough circumstances. There is no doubt 
that in my 25 years, and I am sure in your 35 years, there is 
nothing harder than going and informing a next of kin that a 
Marine has been killed.
    And so in the process, I think that the Marine Corps has 
developed in making sure that there is an officer in uniform 
who shows up to do that and does that very hard job, does a 
very good one, and is taken very, very seriously for many 
years, certainly all the years since you and I came into the 
court.
    But clearly, the system had some flaws in it. You have 
mentioned some of them today, and in your written testimony--I 
have got it all marked up here--some of them jump out. 
Obviously, the personnel casualty report, as you indicated, is 
sometimes disconnected from the investigation.
    And so without those two things together, well-meaning, 
hard-working, serious officers and enlisted can just make a 
mistake because the information is not accurately recorded onto 
the PCR, for example.
    So I applaud the four of you and the Commandant for getting 
the IG in it, and I trust that the IG will dig far and wide and 
deep as we go forward on this.
    I see some of your remedies in your written testimony. One 
of them says, ``We will change higher headquarters reporting 
procedures.'' I am not sure what that is. I don't know if you 
know what it is either, but I would like to see those very 
solid, and perhaps you can tell us when this is done what those 
might be.
    One of your remedies is, ``We must and will ensure tight 
links between the investigation and reporting processes.'' 
Again, I don't know what that is, but I trust those will be 
written down in Marine Corps order and will be visible to you 
and to us.
    And then with that, you say that you are going to ensure 
training is ``rigorous and effective'' and therefore, I trust, 
ongoing as all training is, that it maintains from commanding 
officer to commanding officer to commanding officer. Because no 
matter how good the training is, if it is not done 
consistently, you won't maintain those links.
    And similarly, I have a little bit of a concern when your 
number seven--it says, ``there will be proactive coordination 
between Head Quarters Marine Corps (HQMC) and our subordinate 
command elements to strengthen oversight of reporting 
compliance.'' Unless that is a documented procedure, proactive 
coordination often doesn't last past the Marine who is in the 
office at the time.
    So all this is to say that at the end of this process, I 
presume, when the IG completes the investigation, Headquarters 
of the Marine Corps will be writing these down and promulgating 
these changes. And I would ask that this subcommittee see what 
those are as we go forward. Because I know that you are 
appalled by this, and the Commandant and every Marine, that 
this could be so confusing, that the testimony here could be so 
wrong over the period of time that the chairman has indicated, 
but more importantly, that families didn't know.
    And so I don't have a question except to ask that we be 
allowed to see what these procedures are when the Marine Corps 
promulgates them.
    General Magnus. We will ensure, Congressman Kline, that the 
subcommittee receives copies of all the correspondence, 
including the Commandant's letter to his commanders, as well as 
any changes we make in our procedures and, of course, the 
changes that will be made, that are ongoing right now, and to 
update the DOD instruction on casualty reporting and 
notification in general, and we are----
    Mr. Kline. Is there a white letter out now?
    General Magnus. No, the Commandant is in Iraq right now, 
and when the Commandant gets back, we will sit down and make 
sure that we have a letter that does more than simply exhort 
for reemphasis on the system.
    Because we know that there are potential deficiencies in 
these systems. So we want to make sure that the systems are 
being reported and done by Marines; they are human beings like 
everyone else. And so we need more than just reemphasizing the 
procedures we have.
    Mr. Kline. Thank you.
    I yield back.
    Ms. Davis. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    The question I have, General, is two-fold. First of all, 
wouldn't it help if we had some standard operating procedure 
across the branches of military? And why don't we at this 
point; and would you recommend it?
    General Magnus. Madam Congresswoman, the answer is yes. We 
are now actively working--I literally met with the Army three 
times in the past week.
    We believe that the Army has a good if not outstanding 
model, and we are going to make recommendations to change our 
procedures. If we believe that the Army procedures need 
clarification, we will recommend that to them, and we are going 
to.
    And I have already met this morning with the principal 
deputy undersecretary for personnel and readiness, Mike 
Dominguez. And he is directing the new overarching DOD 
instruction so that we are consistent. And I believe that not 
only uniformity, accuracy, and timeliness within the Marine 
Corps, but uniformity across the four military services and 
DOD, is essential.
    Ms. Shea-Porter. How quickly do you think you would be able 
to implement a joint policy?
    General Magnus. I believe that the Army and the Marine 
Corps can implement the changes within a matter of weeks. The 
signing out of a DOD instruction might take a bit longer.
    Ms. Shea-Porter. And the other question I had was: What 
impact has this had on any of your troops at all? Can you speak 
to that? Has there been an increased anxiety level? Has there 
been any kind of blow-back from families? Has there been a 
negative impact, basically, on Marines from within the ranks?
    General Magnus. Madam Congresswoman, I am not aware of a 
negative impact.
    On the other hand, I am a dad. I have gone to the Intensive 
Care Units (ICUs), and I have hugged the moms whose Marines 
were expectant. I know that this cannot have eased their grief, 
could not have calmed their uncertainty, and could not have 
brought them to closure. So we are mindful of our 
responsibility to take care of our troops and their families. 
So I just have to take this as seriously as it is.
    Ms. Shea-Porter. Have you spoken to them? Has the letter 
gone out, or has there been any kind of communication with 
everybody to state that yes, you know, it was wrong, it is 
going to be fixed, and to reassure?
    General Magnus. In the cases that were investigated 
determining suspected friendly fire, in the case of Lance 
Corporal Shuder's and Lance Corporal Zurheide's family, which 
were the April 12, 2004, incident, that a general officer 
visited the family at the time of their choosing. That happened 
on the 20th and the 23rd of July.
    We believe we have made contact with the family of every 
Marine who has been killed in action. I spoke to Lieutenant 
General Mattis, the commander of Marine Forces Central Command, 
last night, and he is re-doubling efforts to go back and ensure 
that we make contact with every Marine who has been seriously 
injured, or is very seriously injured, as a result of wounds 
received in hostile fire.
    Ms. Shea-Porter. Do you think it would be helpful to 
address everybody and all family members, stating that this 
situation is being remedied for those who have family members 
who have not been injured but wonder what would happen to them?
    General Magnus. Madam Congresswoman, that will be the 
purpose of the Commandant's white letter to all of his 
commanders, which will be followed up by appropriate broader 
distribution instructions to Marines. And we will make sure 
that the communication is broad and effective. We don't want 
any Marine or family to feel that we are not going to take good 
care of them, and to accurately, and in a timely manner, inform 
their families of the circumstances of their injury or their 
death.
    Ms. Shea-Porter. Thank you.
    I yield back.
    Ms. Davis. Thank you.
    Mr. Jones.
    Mr. Jones. Madam Chairman, thank you.
    And, General Magnus, it is good to see you again here in 
August.
    I am having lunch with--I am looking forward to seeing 
Lieutentant Ilario Pantano, sir.
    General, I want to thank you and the Marine Corps as well 
as the services. It is a very difficult war, trying to make 
sure that the families are as well-informed as they can be, and 
whether that be friendly fire or killed by the enemy.
    The casualty officer that goes to tell the family that the 
loved one has been killed, how long does the casualty officer--
and let me tell you, this deals with the Army, and I have 
already got this settled, but it has raised a lot of questions 
for me at least--if a Marine is killed in action, how long does 
it take before the Marine Corps can bring that case to a close?
    And the reason I am asking is I have a constituent whose 
son was killed five months ago. She has requested the autopsy 
report. She has requested the investigation report as to--and 
again, he was killed by an IED.
    And I have been a little bit amazed, not disappointed, 
because war is war and you just can't run to a computer and get 
on a computer and say, ``This happened.''
    How long, generally, should it take for a family to have 
total closure, meaning that questions they might ask about the 
death of that loved one, before the Marine Corps can say that 
the family has received everything that they have requested and 
we are now ready to close the case?
    General Magnus. Congressman, thank you for the question.
    Unfortunately, it varies depending upon the circumstances 
of the casualty. Our instructions require that a family be 
notified within hours of receipt of the casualty report at 
Headquarters of the Marine Corps.
    And the only caveat to that is that we go to family, the 
next of kin that is identified by the Marine normally in their 
record of emergency data, during the hours of 5 in the morning 
and midnight, so that if we are not able to get the right kind 
of people and they can't get the family members to them in the 
event that they need other support.
    That normally happens within hours or within one day, and 
it is not a working day; it is one day. And very frequently 
that happens, literally, within hours.
    That information provided is the information that is as 
good as in the initial personnel casualty report. The initial 
casualty report in the case of hostile action may indicate 
enemy fire determined by the official on the scene, or it may 
indicate that it is indeterminate.
    I have not seen one that indicated in the first casualty 
report that it was friendly fire.
    So that is provided to the family within hours.
    If there is some doubt as to the circumstance of a Marine's 
injury or death, the family is notified as soon as we know that 
there is some doubt. And then there is an investigation process 
that proceeds that is a legal process as the Judge Advocate 
General's manual's determination.
    And when that is finally endorsed--and for killed in 
action, those go to the commander of U.S. Central Command for 
his endorsement. At that point, we will then give the final 
results of the investigation and its endorsements, including a 
redacted copy of the investigation as appropriate to the 
family.
    We are required to update the family every 30 days if that 
investigation has not completed within 30 days of our initial 
notification. And that should be backed up by not only a 
telephonic notification of the status, but backed up by a 
letter.
    That is all of the smaller procedures that are in these 
processes I talked about, which create a series of documents 
and checks and balances that we need to ensure take place.
    Mr. Jones. General, thank you very much.
    And, Madam Chairman, I will yield back.
    Ms. Davis. Thank you.
    Ms. Boyda.
    Mrs. Boyda. Thank you for coming and for your testimony.
    And thank you, Madam Chairwoman.
    I just had a question about process. Generally, and my 
background is in the pharmaceutical industry, so zero tolerance 
is pretty much the name of the game there.
    And I was just wondering from the Marines' standpoint, when 
you do something, and when you check something, who is the 
person who is ultimately responsible for that process? Is it 
the person who does it or the person who checks it, or do you 
determine that? Is that part of your ethos?
    General Magnus. Thank you, Madam Congresswoman.
    Ultimately, the Commandant of the Marine Corps is 
responsible for ensuring these processes come. The checks and 
balances should be periodic examinations of the process, and it 
is required by regulation by the Inspector General of each 
service.
    Mrs. Boyda. May I just ask then, is there--maybe I made an 
assumption--with each one of these friendly fires, is each one 
processed? And then, is it also checked by someone? Is there a 
one-to-one, somebody does it, somebody checks it?
    General Magnus. There should be, yes, ma'am. That is in 
accordance with the regulations.
    Mrs. Boyda. I am just curious, is that currently the 
process?
    General Magnus. That is correct.
    Mrs. Boyda. Is there something that says in our procedures 
or in our process--and again, in the industry that I have come 
from, guess who is the one who is responsible for it? Not the 
person who did it, the person who checks it. And they are the 
one whose job is on the line, whose performance review is on 
the line. The person who does the checking is the person who 
takes it, and it is very clear to everyone whose name is on the 
line what that means.
    So just again, it doesn't sound like that is necessarily a 
written procedure, and I just wondered if it might, in fact, be 
something that is helpful or something that you have ever 
considered.
    General Magnus. Madam Congresswoman, I think it is in the 
regulation that each service have a casualty office that is 
responsible. Those responsibilities are not delineated; they 
are implied. I know what they are.
    But we need to make sure in the checklist of each office 
that Mr. Downs represents the senior officer that is 
responsible for casualty reporting, that he is also aware that 
he has to be mindful of whether or not the status of a friendly 
fire legal investigation is complete, and if not, why not, so 
that from the personal casualty report on, we are constantly 
checking the completeness of the actions we may take.
    If an action is not taken at the beginning, if something is 
not reported, there is no action that we can take. If an 
investigation is not correctly done, then it is the 
responsibility of the endorsers to challenge that.
    But as each process comes to its milestones, there needs to 
be someone who is checking that it has actually been done and 
that we transmit that information to the families.
    Mrs. Boyda. And I yield back. I don't have any other 
additional questions.
    Thank you.
    Ms. Davis. Thank you, Ms. Boyda.
    I just wanted to check, Ms. Sanchez.
    Ms. Sanchez. I have no questions.
    Ms. Davis. All right, great. Thank you.
    Just going back for a second, General, if I may, I think 
one of the concerns, and I am recalling the meeting that we had 
also on the 17th of July, because I think we had a clear sense 
then that that was kind of all there was.
    And then as you mentioned earlier, going back and taking 
another look I think that, from our standpoint, I think it is 
appropriate to characterize that as still a work in progress 
essentially, rather than something that is pretty definite as I 
think the impression of those of us who were at that meeting 
had. Conveying that, is that a better way to move forward?
    Obviously, we want to have definite numbers, but on the 
other hand, it is unsettling to come back and have different 
numbers as time moves on.
    General Magnus. Madam Chairwoman, it is unsettling to us, 
not only in leadership positions but anyone that has been 
associated with us, including the officials that are 
responsible for the processing. We believe that we will have 
definitive information, definitive numbers when the Inspector 
General is complete with his investigation.
    Hope is not a principle of war. I hope that our numbers 
that we have done on our initial accountings turn out to be 
definitive. I am not confident in that as I sit here. And we 
will provide the subcommittee a copy of the Inspector General's 
investigation.
    Ms. Davis. A follow up as well, on the 17th, when the 
Marine Corps stated that 24 Marines--Marine Corps Central 
Command (MARCENT) had reported--that were killed from friendly 
fire in the Nazaria incident. And then they stated that all 18 
were included because they were killed as part of the friendly 
fire incident. But then we learned that actually eight of the 
18 were killed by hostile fire.
    So I am wondering why the eight would be grouped with the 
remaining 10 if, in fact, they were not part of the friendly 
fire incident?
    General Magnus. Madam Chairwoman, that incident that you 
are referring to, the 23rd of March, 2003, was the 1st 
Battalion, 2nd Marines. The investigation on that, which I 
believe was complete, was done by CENTAF, the Air Forces' 
Component Central Command.
    The troops in the 1st Battalion, 2nd Marines were engaged 
in fierce combat with Iraqi Army forces on Nazaria. Unbeknownst 
to the company that was literally behind them, they were in 
front, and when the fires were authorized by their fellow 
company, that company thought that they were part of the Iraqi 
Army.
    The Air Force was cleared in on a mission when U.S. troops 
were in fierce, close contact, already receiving numerous 
casualties. As a result of the fact that the A-10's then 
conducted a strike on that vicinity, the Air Force then became 
the suspected afflicting agency of the friendly fire and 
therefore it was their responsibility, according to 
regulations, to conduct a full and complete investigation.
    A full and complete investigation, as you can imagine, is 
quite extensive, including medical forensics.
    It turns out that eight of the 18 killed in action were 
determined to have been killed by the Iraqis and, in fact, the 
vicinity of the A-10 attack was a casualty collection point for 
that infantry company.
    The other 10 of the 18 casualties were literally 
``indeterminate cause'' of their death. And you can imagine the 
tremendous amount of damage that was being done in fierce 
close-combat, plus the ordinance that was delivered by the A-
10, made it medically impossible for the investigating officer 
to determine the exact cause of death.
    Likewise, that battalion also reported 17 wounded in action 
that day. Of the 17, 15 were due to wounds from enemy fire; 2 
seemed to be indeterminate, and I know for a fact that 1 of 
them actually received wounds--this is a living, wounded 
Marine--from both Iraqi fire and apparently from shrapnel 
delivered by the A-10.
    The actual timing of the fatal injuries and the timing of 
the wounds can only be determined by the living. The wounded 
can tell you when they believe they got wounded. It is very 
difficult to determine the timing of deaths.
    Ms. Davis. I think the question is why the eight were 
listed on the friendly fire list at all, though.
    General Magnus. Because they were part of a friendly fire 
investigation. And in fact, because the fires were delivered in 
support of and believed to be against the enemy--so the 
investigation determines whether or not we can determine 
whether it is friendly fire, enemy fire, or in some cases here 
as I have discussed, it is indeterminate.
    Ms. Davis. So in other instances where there are sizable 
numbers and there is a friendly fire investigation, all the 
others would come under that investigation?
    General Magnus. Madam Chairwoman, in a given incidence. So 
in other words, at a certain time and place, if there are a 
number of casualties and friendly fire is suspected, that will 
all be done in one investigation with determinations made for 
each and every one of the suspected wounded or killed. If the 
same unit has a separate operation going on, there would be, if 
necessary, a separate investigation.
    Ms. Davis. Does that designation change, though, after the 
full investigation is done and it is determined that that was 
not the cause? Should that change in the listing of casualties?
    General Magnus. Ma'am, no. The reason for the investigation 
won't change. The determination of the causal factors of the 
injury of death, they will change upon final determination of 
the investigating officer and the endorsers.
    Ms. Davis. But when someone goes back and looks at the 
lists then, they would still see not the final determination on 
that list.
    General Magnus. Madam Chairwoman, it depends on who makes 
up the list. As I might have indicated earlier, there were 23 
total suspected friendly fire incidents, only 19 of which had 
actual friendly fire determinations for the casualties, 4 of 
which did not.
    Ms. Davis. I see. But I think still, for our viewing, when 
we go back and when we look at the list that we had asked for, 
those are still listed in that framework. And that is our 
concern, how that gets changed so that we have that appropriate 
information. Maybe we can review that.
    General Magnus. Madam Chairwoman, we will review that. I 
tried to correctly characterize that in my written letter 
response back to the subcommittee. If there is a way we can 
improve it so there is no misunderstanding; accuracy and 
timeliness of a response to the families and, of course, to the 
Congress, is essential.
    Ms. Davis. Okay, certainly. We are just looking for the 
system to essentially reflect that, and if that is what we are 
given, that is what we see. And we would like to try to figure 
out a way to make certain that that isn't there.
    Thank you.
    Mr. McHugh, did you have any more questions?
    Mr. McHugh. Yes.
    Of course, the comment, General,--well, he is back. I want 
to associate myself with the comments of the great Marine 
warrior to my left, Mr. Kline. You spoke about the Army, and 
the Army, I would tend to agree with you at least in the 
comparative sense, has a pretty good system. On paper, it looks 
great, and they have had it in place for a number of years now.
    But I think as we look at what did or didn't happen in the 
Corporal Pat Tillman case where, although the regulations and 
directive out of the Army required notifications to occur while 
an investigation was ongoing, virtually every one of the 
officers with the exception, apparently, of one, were operating 
under the assumption that that wasn't the policy. They weren't 
aware even though it was.
    So while changing the structure and redefining it through 
directives is important, as Mr. Kline said, we have got to get 
that word out to the field or at least in that one case with 
Corporal Tillman, it may not work.
    So I just wanted to add my one and a half cents onto that.
    The only other thing I want to pursue right now is just for 
my own edification.
    General, when you spoke about the evolving data that we 
have received over the first hearing of June 27th, the briefing 
of July 17th, and then last evenings letter of August 1st from 
you, there was apparently--for lack of a better description--a 
disconnect between MARCENT and Headquarters Marine Corps.
    Did I hear that correctly?
    General Magnus. Congressman, I don't necessarily have the 
information that MARCENT did not correctly report. What I do 
know is the records that we have at Headquarters Marine Corps 
are inconsistent.
    Mr. McHugh. Well, that is why I said ``disconnect.'' I am 
not trying to characterize. They weren't the same for whatever 
reason. That is what you are trying to determine.
    General Magnus. That is correct, sir.
    Mr. McHugh. When General Downs--and I agree pretty much 
with Dr. Snyder's comments in the beginning about General 
Downs' kind of attitude, but I don't know if that is fair, but 
it is certainly the impression that many of us got.
    But as I look through the transcript of that hearing, I 
mean, I can at least understand the source of his certainty 
when we are going through the processes, the two incidences 
since OEF/OIF as query to the defense casualty system.
    He was certain that his data was correct because, as he put 
it, and I am reading from the comments on the transcript, 
``this, the data, includes all updated reports, Ms. Davis.'' He 
was responding to the Chair. ``The casualty information 
processing system includes the original personnel casualty 
report and any supplements that have been issued, so the 
information is updated as each PCR is received.''
    Where does that process, the defense casualty processing 
system, fit into this continuum, if you will? Where do the 
PCR's come in? Where is it then transmitted to, and where did 
you look to give us the latest updated figures of the 82 
casualties, comprised of 23 incidences?
    General Magnus. The command reporting system that I spoke 
of as the first of those three processes includes a telephonic 
report normally within an hour of the command realizing a 
casualty. It is followed immediately, probably within minutes 
in most cases, by a digital electronic personnel casualty 
report.
    At the same time, data is entered by the command into 
DCIPS, the Defense Casualty Information Processing System, 
which also feeds into a thing called defense casualty system, 
which is a registry or record that has been accumulated, I 
believe, going back to at least Vietnam if not before. But 
those are simply feeder systems. They are taking the data that 
is originally in the PCR as it is reported, and as it is 
modified by supplemental PCRs from the command.
    Mr. McHugh. So it is transmitted initially from the field, 
as I hear you say it, almost simultaneously to both the defense 
casualty processing system, sent into that, but also into 
MARCENT. True?
    General Magnus. The command in the field will begin to 
enter casualty information processing as the Marine is 
evacuated from the battlefield, assuming he has to be 
evacuated. And at each time there is a change in his casualty 
information, if he goes from Al Anbar to Balad to Landstuhl, 
the defense casualty information updates that status.
    Now of course, if in fact, there is a fatality, that 
information stops there. That then feeds into the other system 
which is the defense casualty system, but each time there is a 
change in status by the command, they are supposed to indicate 
a supplemental personnel casualty report until the time that 
that individual either becomes fatal or the injury is lowered 
to the status of what is called ``not seriously injured.'' That 
determination of that status is made by a competent medical 
authority.
    Mr. McHugh. The discrepancy, the numbers, was really 
rectified at least in the moment, and I have heard you say that 
you are not entirely confident, and I understand that, and you 
have got an ongoing review.
    But that ongoing review really deals between whatever the 
two data sets are held by the Headquarters of the Marine Corps 
and MARCENT, yes? What I am concerned about, and I don't know 
if this is strictly the Marine Corps' duty here, but I am 
concerned about the quality of data entered across the board 
into the defense casualty processing system.
    Is there any assurance that those data are accurate or 
jibing with anything else? Did anybody look at that in your 
case or not?
    General Magnus. That is going to be part of the deeper 
review by, basically, a professional investigator. That is what 
their job is.
    I think from my cursory look at this--and I know you have 
emphasized, Congressman, that I am not yet confident in our 
information or our numbers--my cursory review is that any error 
in system has a tendency to be perpetuated inside that system. 
The Judge Advocate General's investigation is about as close to 
the flawless process that the congresswoman mentioned that is 
similar in the pharmaceutical profession, because that is 
rigorously gone over by lawyers and vetted at each chain.
    But it is the casualty reporting chain that is the one that 
is subject to having either incorrect information later 
corrected. If it is never entered into that system, it may not 
have the checks and balances to be corrected.
    Mr. McHugh. I thank you, General. General, thank you for 
being here today.
    I yield back.
    Ms. Davis. Thank you, Mr. McHugh.
    Dr. Snyder.
    Dr. Snyder. Thank you.
    General, you said, I think in response to Ms. Shea-Porter, 
that you thought that a DOD-wide policy is essential, was your 
words, and that Secretariat Dominguez is working on putting 
that together.
    Now the Commandant's going to come out with a white letter 
to disseminate to everyone. Is the timing of that potentially 
going to be that the Commandant comes out with a white letter, 
then DOD comes out with a policy, and you are going to have to 
say, ``Well, our white letter is not quite consistent with DOD 
policy, and we are going to have to adjust it?''
    I mean, the Army is very satisfied with their procedures 
now after going through some real heartache, primarily because 
of Corporal Tillman's case. The Navy and the Air Force are 
satisfied; they have recognized their numbers are lower than 
the Army and Marine Corps.
    Do we have the potential that everyone is going to have to 
adjust in order to follow along this DOD-wide policy that you 
think is coming?
    General Magnus. Thank you, Congressman.
    While I can't guarantee that we might not have a 
disconnect, we are working closely with the Navy Secretariat 
and OSD to ensure that their higher level guidance is 
consistent with what the Army and the Marine Corps will be 
doing.
    And our job is going to have implementing instructions far 
beyond that that is going to be in the white letter to the 
commanders that will literally guide the training, the 
checklists, and if necessary, any modifications to our process, 
to ensure that we take note of the Army model and make 
appropriate changes for the Marine Corps procedures.
    Dr. Snyder. I got you.
    You said earlier that it is the inflicting force that is 
responsible for the investigation. Is that correct?
    General Magnus. That is correct, sir.
    Dr. Snyder. Is that true, then, if it is the inflicting 
force that causes casualties of DOD civilians that are in Iraq 
or Afghanistan?
    General Magnus. That is correct, sir. The DOD instructions 
cover DOD civilians and DOD contractors that were killed or 
injured by hostile fire.
    Dr. Snyder. And what if the inflicting force--your 
responsibility would be a Marine Corps incident in which other 
government agency other than DOD civilians are casualties of a 
friendly fire in which the Marine Corps is inflicting force, 
are you responsible for that investigation?
    General Magnus. Congressman, I am not aware of any 
circumstance, but of course, that potential exists particularly 
in this war. A determination would be made by the appropriate 
command as to who is going to do the investigation. And in the 
event that it was classified--and we have done classified 
investigations, I just looked at one today--that appropriate 
unclassified parts of that were transmitted back into the 
systems that go to track casualties.
    Dr. Snyder. And then you have the potential issues of--I am 
focusing now on just U.S. citizens--U.S. citizens who would get 
hurt by a friendly fire incident, which may have no connection 
with government. They may be missionaries, they may be business 
people. That is a third potential level of investigation.
    My final question is, I would assume that when these 
incidents occur, they are always heart-breaking for the 
soldiers and Marines that are a part of them, that there is a 
learning experience that goes on at some level, perhaps 
multiple levels. What could we have done different to avoid 
this?
    And if you had asked me before Mr. McHugh, and I, and Ms. 
Davis participated in this hearing at the end of June, I would 
have thought that there would have been, perhaps fairly high 
level, maybe in the Commandant's office somewhere, someone 
responsible for--``Yes, we have got a file on each one of these 
incidents; we are looking for common links; we think it is 
because, I don't know, the uniforms we were wearing; we think 
it is poor communication, but there seem to be some links.''
    But the fact that this has taken literally weeks of 
gathering these different incidents together, I mean, it is 
pretty firm evidence there is no one looking at these incidents 
saying, ``Is there a commonality that we can avoid this in the 
future?'' Is that a fair statement?
    General Magnus. Congressman, I would say that as of today, 
that is not a correct statement. There are lots of folks 
looking at this.
    Dr. Snyder. As of a few weeks ago, it was a fair statement.
    General Magnus. Unfortunately, that is true.
    Dr. Snyder. Because it would have seemed like that would 
have been the first place you would have gone to is we have got 
this overt colonel who is responsible for looking at all these 
just like we have an office that looks at all IED--that we are 
looking for ways to prevent things from occurring in the 
future, but there hasn't been any of that occurring in the 
Marine Corps as near as we can tell. And that is probably 
unfortunate.
    But thank you, General, for being here. We appreciate your 
time and your service and working on this issue.
    Thank you, Madam Chair.
    Ms. Davis. Mr. Kline.
    Mr. Kline. Thank you, Madam Chair.
    General, I would suspect that, following up on Dr. Snyder's 
questions and remarks, if there are, over time, organizations 
that look at things like this: the Center for Naval Analysis, 
the folks down at Quantico who are looking at lessons learned, 
and so forth.
    But that is different from the sort of on-the-spot taking a 
look at the casualty reports that come in and the 
investigation. I don't know that to be true, but I know that 
historically, it is true.
    Dr. Snyder. Would the gentleman yield?
    Mr. Kline. Oh, happy to.
    Dr. Snyder. But if the official word six weeks ago was that 
there had only been two incidents, that means that those groups 
that you cited would have probably been only informed of two 
incidents.
    Mr. Kline. Entirely possible. I am not disagreeing at all. 
I am just saying that as a matter of course, that sort of 
after-action investigation has gone on conflict after conflict 
and I am sure it would here, too. I am not excusing all the 
discrepancies.
    And as I said in my earlier comments, there is no doubt 
that processes have to be changed, and that is what you are 
moving forward with.
    And I just want to get clear for our understanding, for the 
record, that in the Inspector General's effort, as he looks at 
everything that happened, should there be an indication that 
something other than courage, honor and commitment was 
demonstrated by someone involved. That there was an expectation 
in this process that such person would then be moved to 
administrative or legal, Uniformed Code of Military Justice 
(UCMJ), that there will be--if misconduct of any kind 
occurred--that will be addressed as well? Is that correct?
    General Magnus. Congressman, that is absolutely correct.
    Mr. Kline. I thought I heard that in an earlier question. I 
just wanted to make it perfectly clear that as part of this 
process goes forward, you are not only looking at what happened 
to an end of change in processes, but if there were misbehavior 
of any sort, that will be brought to light as well. You have 
answered it. Thank you.
    And I yield back.
    Ms. Davis. Thank you, Mr. Kline.
    All right, thank you.
    General, we really appreciate the fact that you have been 
here and answering the questions and trying to help us clarify 
a number of issues.
    One of the concerns that we heard as we sat in the meeting 
on the 27th centered around the term, ``suspected friendly 
fire,'' and it was our understanding that the family wasn't 
notified of that initially, but that that has changed. And I 
just wanted to clarify that.
    At what point is a family notified of a suspected friendly 
fire incident?
    General Magnus. A family is required to be notified of 
suspected friendly fire or indeterminate cause of either a 
fatality, a very serious injury, or serious injury. They are 
required to be notified at the same time frames as our 
preliminary personnel casualty report; in other words, within 
the hours of 0500 until midnight.
    If that status changes, if for good reason it was 
incorrectly reported as enemy fire, subsequently determined to 
be indeterminate, we are to immediately do the same thing and 
then to update that family in 30 days unless there has been a 
completion backing that up with a letter to let them know what 
the status is.
    Ms. Davis. So it is correct to say that families are 
notified earlier today than they were before we started to take 
a look at this incident. Is that correct? Because it was our 
understanding that actually they weren't notified until after 
an investigation was done, if it was indeterminate.
    Are you saying that now it is that they are notified, if it 
is indeterminate, early on?
    General Magnus. Madam Chairwoman, that is correct. And they 
should have been notified in accordance with statute and 
regulation previously.
    In the case of Lance Corporals Shuder and Zurheide, that 
incident on the 12th of April, that was not even in accordance 
with our regulations. Literally, it was over two years to the 
notification.
    Ms. Davis. Right, okay.
    And finally, just to focus on the educational process for 
those that are part of this process and are part of the 
notification process. What do you see in terms of changes, 
reforms, that would be taking place at the adjutant schools as 
a result of changes in the white letter, which we understand 
has not come out yet, and you are suggesting that it is going 
to be more than a reemphasis. It is going to be more specific 
in terms of the standard of procedures that follow that, which 
we hope are in line with that--there is still this educational 
process over here.
    What changes do you foresee? And is it a matter of time 
spent in trying to retrain, difference of emphasis? What do you 
anticipate will be taking place?
    General Magnus. Madam Chairwoman, first off, I think this 
will take place quite rapidly. I actually think that our 
procedures, although they need to be reviewed and there will 
probably be some changes, they were more than adequate if 
people understood the necessity to cross check.
    But the commanding officers and the commanding generals 
will be advised of not only the reemphasis, but the changes 
that we want to put in place immediately and any changes that 
come subsequently with the DOD instruction and changes in 
Marine Corps order.
    The judge advocates will be advised. And quite frankly, I 
think they do their process quite well. But of the 
connectivity, again, of these systems, and perhaps most 
importantly, the noncommissioned officers and officers that 
manned the command operational centers which do the initial and 
update reporting, they need to be ensured that the procedures 
they are trained by and their reports are consistent.
    Quite frankly, the lynchpin on this, though, Madam 
Chairman, is the casualty section itself. To be ensured that 
they are aware and get the information on all three of these 
processes, that they rigorously cross-check and question things 
that don't match up. And, ultimately, the Inspector General's 
checklist has to be modified to ensure that we periodically go 
back and check this process, which can't be something that you 
only check once every 12 months.
    So there are other things the IG, himself, is going to do 
to ensure that we have appropriate checks and balances.
    Ms. Davis. What do you think is a fair amount of time for 
us to allow these changes to take place, whatever training is 
required, the white letter to move forward, and to bring either 
you back, General, or your representative to take a look at 
this and see how we are doing? Is it six months? Is it a year? 
What is a fair amount of time to take a look?
    General Magnus. Madam Chairwoman, after you receive the 
results of the IG's investigation with our endorsements for 
actions on it, I believe we will have made the necessary 
changes within the Marine Corps within 30 to 60 days, to get it 
promulgated across the core. Obviously, the focus will be on 
the deployed and deploying combat units.
    Any changes that may become from changing orders and 
directives may happen later, but I think the ones that are 
going to address everyone's correct concerns about the 
deficiencies in these systems, they will be done within 30 to 
60 days.
    Ms. Davis. I appreciate that.
    Can I assume that if there are some problems that arise, 
that you will let us know about those so that we have an 
opportunity----
    General Magnus. Madam Chairwoman, we are going to provide 
the committee staff copies of every single directive document, 
including the Commandant's letter that occurs as a result of 
this.
    Ms. Davis. Okay, thank you very much, General.
    Again, thank you very much for your service. Thank you for 
your frankness here, today. We appreciate it.
    Thank you very much.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             August 2, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             August 2, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8315.001
    
    [GRAPHIC] [TIFF OMITTED] T8315.002
    
    [GRAPHIC] [TIFF OMITTED] T8315.003
    
    [GRAPHIC] [TIFF OMITTED] T8315.004
    
    [GRAPHIC] [TIFF OMITTED] T8315.005
    
    [GRAPHIC] [TIFF OMITTED] T8315.006
    
    [GRAPHIC] [TIFF OMITTED] T8315.007
    
    [GRAPHIC] [TIFF OMITTED] T8315.008
    
    [GRAPHIC] [TIFF OMITTED] T8315.009
    
    [GRAPHIC] [TIFF OMITTED] T8315.010
    
    [GRAPHIC] [TIFF OMITTED] T8315.011
    
    [GRAPHIC] [TIFF OMITTED] T8315.012
    
    [GRAPHIC] [TIFF OMITTED] T8315.013
    
    [GRAPHIC] [TIFF OMITTED] T8315.014
    
                                  <all>

</pre></body></html>
